`


    VA Office of Inspector General
                                     OFFICE OF AUDITS AND EVALUATIONS




                                                                           Inspection of 

                                                                        VA Regional Office
                                                                        Seattle, Washington




                                                                                     September 24, 2014
                                                                                       14-01502-259
                                  ACRONYMS

A&A          Aid and Attendance
FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SAO          Systematic Analysis of Operations
SMC          Special Monthly Compensation
TBI          Traumatic Brain Injury
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                    Report Highlights: Inspection of VA
                    Regional Office Seattle, WA

Why We Did This Review                            timely and contained the analyses and
                                                  recommendations needed to address
The Veterans Benefits Administration              deficiencies.   However, because VARO
(VBA) has 56 VA Regional Offices                  management required staff to address other
(VAROs) and a Veterans Service Center in          work considered to be a higher priority, they
Cheyenne, WY, that process disability             delayed completing 11 of 30 benefits
claims and provide a range of services to         reduction cases.      Taking timely and
veterans. We evaluated the Seattle VARO           appropriate actions on benefits reductions is
to see how well it accomplishes this mission.     necessary to ensure financial stewardship
Office of Inspector General benefits              and minimize improper benefits payments.
inspectors conducted onsite work at this
VARO in March 2014.                               What We Recommend
What We Found                                     We recommend the VARO Director develop
                                                  and implement plans to ensure staff take
Overall, VARO staff did not accurately            timely action on reminder notifications for
process 22 (24 percent) of 90 disability          medical reexaminations; review and take
claims reviewed. We sampled claims we             appropriate action on the 576 temporary
considered at higher risk of processing           100 percent disability evaluations remaining
errors, thus these results do not represent the   from our inspection universe; ensure
overall accuracy of disability claims             effective training and modify the local
processing at this VARO.                Claims    secondary review policy for processing
processing that lacks compliance with VBA         special monthly compensation and ancillary
procedures can result in the risk of paying       benefits; and develop a plan to prioritize
inaccurate and unnecessary financial              actions on benefits reduction cases.
benefits.
                                                  Agency Comments
Specifically, 15 of 30 temporary 100 percent
disability evaluations reviewed were              The Director of the Seattle VARO concurred
inaccurate. Errors related to temporary           with all recommendations. We will follow
100 percent disability evaluations primarily      up on actions as deemed necessary.
occurred because staff did not timely
process reminder notifications for medical
reexaminations. Generally, VARO staff
accurately processed traumatic brain injury
claims. However, VARO staff incorrectly
processed 6 of 30 special monthly
compensation and ancillary benefits claims                   LINDA A. HALLIDAY
due to lack of oversight and training.                   Assistant Inspector General
                                                          for Audits and Evaluations
VARO      managers    ensured  Systemic
Analyses of Operations were complete and
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    I. 	 Disability Claims Processing ...............................................................................................2
 

           Finding 1              Seattle VARO Needs To Improve Disability Claims Processing 

                                  Accuracy ......................................................................................................2
 

                                  Recommendations........................................................................................9
 

    II. 	Management Controls ........................................................................................................11 


           Finding 2              Seattle VARO Lacked Oversight to Ensure Immediate Action On 

                                  Benefits Reductions ...................................................................................12 


                                  Recommendation .......................................................................................13 


Appendix A                        VARO Profile and Scope of Inspection .....................................................14
 

Appendix B                        Inspection Summary ..................................................................................16 


Appendix C                        VARO Director’s Comments.....................................................................17 


Appendix D                        OIG Contact and Staff Acknowledgments ................................................20 


Appendix E                        Report Distribution ....................................................................................21 

                                                                  Inspection of VARO Seattle, WA



                    INTRODUCTION
Objective	          The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    	 Evaluate how well VAROs are accomplishing their mission of providing
                       veterans with access to high-quality benefits and services.
                    	 Determine whether management controls ensure compliance with VA
                       regulations and policies; assist management in achieving program goals;
                       and minimize the risk of fraud, waste, and other abuses.
                    	 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.
Other 	                Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    	 Appendix B outlines criteria we used to evaluate each operational
                       activity and a summary of our inspection results.
                    	 Appendix C provides the Seattle VARO Director’s comments on a draft
                       of this report.




VA Office of Inspector General                                                                1
                                                                               Inspection of VARO Seattle, WA



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims	               The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy              claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and their effect on veterans’
                      benefits.

Finding 1 	           Seattle VARO Needs To Improve Disability Claims Processing
                      Accuracy

                      The Seattle VARO did not consistently process temporary 100 percent
                      disability evaluations and entitlement to SMC and ancillary benefits.
                      However, the VARO generally processed TBI claims accurately. Overall,
                      VARO staff incorrectly processed 22 of the total 90 disability claims we
                      sampled, resulting in 128 improper monthly payments to 9 veterans totaling
                      $168,455.

                      We sampled claims related only to specific conditions that we considered at
                      higher risk of processing errors. As a result, the errors identified do not
                      represent the universe of disability claims or the overall accuracy rate at this
                      VARO. Table 1 reflects the errors affecting, and those with the potential to
                      affect, veterans’ benefits processed at the Seattle VARO.

                  Table 1. Seattle VARO Disability Claims Processing Accuracy
                                                      Claims                 Claims                  Claims
                                                   Inaccurately            Inaccurately            Inaccurately
                              Claims                Processed:              Processed:
    Type of Claim                                                                                   Processed:
                             Reviewed           Affected Veterans’      Potential To Affect
                                                     Benefits           Veterans’ Benefits            Total

 Temporary 100
 Percent Disability              30                     3                        12                      15
 Evaluations
 TBI Claims                      30                     0                         1                       1
 SMC and Ancillary
                                 30                     6                         0                       6
 Benefits
  Total                          90                     9                        13                      22
 Source: VA OIG analysis of the Veterans Benefits Administration’s (VBA) temporary 100 percent disability
 evaluations paid at least 18 months, TBI disability claims completed in the first quarter fiscal year (FY) 2014,
 and SMC and ancillary benefits claims completed in calendar year 2013.




VA Office of Inspector General                                                                                      2
                                                                   Inspection of VARO Seattle, WA


Temporary           VARO staff incorrectly processed 15 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
                    disability evaluation for a service-connected disability following surgery or
Evaluations
                    when specific treatment is needed. At the end of a mandated period of
                    convalescence or treatment, VARO staff must request a follow-up medical
                    examination to help determine whether to continue the veteran’s 100 percent
                    disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits.
                    Available medical evidence showed 3 of the 15 processing errors we
                    identified affected veterans’ benefits and resulted in 16 improper monthly
                    payments to 3 veterans totaling $30,688. These improper payments occurred
                    from August 2013 until March 2014. Following are descriptions of these
                    errors.

                    	 The most significant overpayment occurred when VARO staff did not
                       take action to reduce benefits after receiving medical evidence that
                       showed a veteran’s condition had improved.          Results from a
                       March 2013 medical reexamination showed residual disabilities
                       associated with prostate cancer supported a 40 percent evaluation.
                       However, VARO staff did not take action to notify the veteran of the
                       proposed reduction until January 2014—almost 10 months after the
                       reexamination was completed. As a result, the veteran was overpaid
                       $14,155 over a period of 6 months.
                    	 In a March 2013 rating decision, a Rating Veterans Service
                       Representative (RVSR) proposed reducing a temporary 100 percent
                       disability evaluation after receiving medical evidence that the veteran’s
                       prostate cancer condition had improved. However, a final rating decision
                       to reduce the benefits did not occur until February 2014. Consequently,
                       VA overpaid the veteran by $13,054 spanning approximately 7 months.
                    	 In a February 2010 VA rating decision, an RVSR established the need
                       for a reexamination to take place in October 2011. However, the
                       examination was not conducted until January 2012. Delays associated
                       with the delayed examination resulted in the veteran receiving $3,480 in
                       benefits payments that were unsupported by medical evidence over a
                       period of 3 months.


VA Office of Inspector General                                                                 3
                                                                   Inspection of VARO Seattle, WA


                    The remaining 12 of the total 15 errors had the potential to affect veterans’
                    benefits. We could not determine whether the evaluations would have
                    continued because the veterans’ claims folders did not contain the medical
                    evidence needed to evaluate each case. Neither we nor VBA can determine
                    evaluations when claims folders lack the medical examination reports needed
                    to evaluate each case. Details follow on these 12 cases.

                    	 Seven errors occurred when VARO staff delayed scheduling required VA
                       reexaminations despite receiving reminder notifications to do so. VBA
                       policy requires that within a 30-day time period, VARO staff input
                       controls in the electronic system to ensure the reexaminations are
                       scheduled. However, on average, 9 months elapsed from the time staff
                       scheduled or should have scheduled these medical examinations until
                       March 2014.
                    	 Three errors occurred when VARO staff did not take timely action to
                       address veterans’ requests for hearings in response to proposals to reduce
                       their benefits. VBA policy states VARO staff will extend the due
                       process period of 30 days to 60 days in such cases if hearings are
                       requested. In all three cases, VARO staff exceeded the allowed
                       extension period, and the hearings had not yet taken place at the time of
                       our March 2014 inspection. In one of the three cases, the veteran
                       requested the hearing more than 1 year and 10 months prior to our
                       inspection, yet no hearing and no final reduction of benefits had
                       occurred.
                    	 The remaining errors occurred when VARO staff needed future
                       reexaminations to determine if temporary 100 percent disability
                       evaluations for two veterans’ prostate cancer should continue.
                       Reexaminations to assess residual disabilities associated with prostate
                       cancer are required 6 months following cessation of treatment. However,
                       in these two cases the reexaminations were not scheduled to take place
                       until 5 years in the future.

                    The majority of the processing inaccuracies resulted from a lack of oversight
                    to ensure staff took timely action to process reminder notifications for VA
                    reexaminations. VBA policy allows VARO staff 30 days to process
                    reminder notifications. We determined the VARO had 1,218 reminder
                    notifications pending at the time of our March 2014 inspection. These
                    pending reminder notifications ranged from about 1 month to 2 years and
                    4 months, and averaged approximately 5 months. Both VARO staff and
                    management indicated their priority was to work on rating-related
                    compensation cases as part of VBA’s national initiatives rather than process
                    reminder notifications to order reexaminations.

                    The second most frequent type of error occurred when VARO staff delayed
                    scheduling hearings or finalizing benefits reductions associated with
                    temporary 100 percent disability evaluations after receiving evidence that

VA Office of Inspector General                                                                 4
                                                                   Inspection of VARO Seattle, WA


                    veterans’ conditions had improved. Again, VARO staff and management
                    indicated that priority had not been placed on processing these workloads
                    items.

                    VARO management disagreed with 13 of the 15 errors we identified as
                    noncompliant with VBA policy. Management indicated failure to take
                    timely action is a workload issue that quality assurance staff would not
                    identify as an error. Management acknowledged the VARO’s responsibility
                    to ensure staff take timely and appropriate action on work items, but
                    indicated workload demands had impacted their ability to do so. Regardless
                    of competing priorities, timely processing of these benefits reductions is
                    required to ensure financial stewardship in VBA’s Compensation Program.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Seattle, WA
Prior VA OIG        (Report No. 11-00515-266, September 8, 2011), VARO staff incorrectly
Inspection
                    processed 17 (57 percent) of 30 temporary 100 percent disability evaluations
                    we reviewed. The most frequent errors occurred because staff did not enter
                    suspense diaries in the electronic record to ensure they received reminder
                    notifications to schedule VA medical reexaminations.

                    During our March 2014 inspection, we did not identify any errors where staff
                    did not enter suspense diaries in the electronic record. The suspense diaries
                    were generating reminder notifications; however, VARO staff were not
                    taking timely action to request reexaminations from VA medical facilities.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities. Additionally,
                    VBA policy requires that employees assigned to the appeals team, the special
                    operations team, and the quality review team complete training on TBI
                    claims processing.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report No.
                    11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    Generally, VARO staff accurately processed TBI disability claims. Of the
                    30 claims reviewed, only 1 of the cases contained an error. Specifically, a
                    medical examiner did not complete a required examination to assess a

VA Office of Inspector General                                                                  5
                                                                     Inspection of VARO Seattle, WA


                    veteran’s headaches. Nonetheless, an RVSR used the insufficient TBI
                    examination results to rate the veteran’s TBI-related headaches. Had VARO
                    staff requested a separate examination for headaches, the results could have
                    increased the veteran’s monthly benefits. Without the separate exam, VBA
                    lacks assurance that the veteran received the highest overall evaluation for
                    this disability.

                    VARO management did not concur with the error we found. Management
                    stated that the OIG was technically correct that an additional examination
                    should have been conducted, but determined the headache condition was
                    adequately evaluated as part of the TBI examination. VBA policy requires
                    that an additional examination be completed in order to accurately evaluate
                    the veteran’s residual headache condition. Neither we nor VARO staff we
                    can ascertain all the residual disabilities of a TBI without an adequate or
                    complete medical examination.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Seattle, WA,
Prior VA OIG        (Report No. 11-00515-266, September 8, 2011), we determined TBI claims
Inspection          processing errors occurred because TBI training did not ensure RVSRs had
                    the skills needed to make accurate disability determinations.          We
                    recommended the director develop and implement a plan to assess the
                    effectiveness and adequacy of RVSR training on processing TBI claims.
                    The Director concurred with our recommendation and provided additional
                    TBI training to all RVSRs and Decision Review Officers. Additionally,
                    VARO management indicated staff would follow the second-signature
                    guidance mandated by VBA for reviewing TBI claims. Further, the Director
                    indicated TBI training would be an ongoing concentration, along with
                    assessing the effectiveness and adequacy of the training. In January 2012,
                    the OIG closed this recommendation.

                    Based on this TBI information and the fact that we identified only one TBI
                    claims processing error during our March 2014 inspection, we concluded the
                    corrective actions taken in response to our 2011 VARO inspection were
                    adequate. As such, we made no recommendation for improvement in this
                    area.

Special             As the concept of rating disabilities evolved, VBA realized that for certain
Monthly             types of disabilities, the basic rate of compensation was not sufficient for the
Compensation
and Ancillary
                    level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, or
                    the need to rely on others for daily life activities like bathing or eating.
                    Generally, VBA grants entitlement to SMC when the following conditions
                    exist.



VA Office of Inspector General                                                                    6
                                                                    Inspection of VARO Seattle, WA


                    	 Anatomical loss or loss of use of specific organs, sensory functions, or
                       extremities
                    	 Disabilities that render the veteran permanently bedridden or in need of
                       aid and attendance (A&A)
                    	 Combinations of severe disabilities that significantly affect locomotion
                    	 Existence of multiple, independent disabilities that are evaluated as 50 to
                       100 percent disabling
                    	 Existence of multiple disabilities that render the veteran in need of such a
                       degree of special skilled assistance that, without it, the veteran would be
                       permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for special monthly compensation. Examples of ancillary benefits
                    are:

                    	 Dependents’ Educational Assistance under 38 USC Chapter 35
                    	 Specially Adapted Housing Grant
                    	 Special Home Adaptation Grant
                    	 Automobile and Other Conveyance and Adaptive Equipment Allowances

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement to these benefits. We examined
                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss, loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed 6 of 30 veteran’s claims involving SMC
                    and related ancillary benefits—all of the errors affected veterans’ benefits
                    and resulted in 112 improper monthly payments to veterans totaling over
                    $137,767 from October 2010 to March 2014. As a result, veterans received
                    improper payments or were unaware of benefits to which they were entitled.

                    Summaries of the six errors identified in processing SMC and ancillary
                    benefits follow.

                    	 In one case, an RVSR incorrectly established SMC based on a need for
                       A&A to assist with activities of daily living. The RVSR granted this
                       entitlement based on all of the veteran’s disabilities. However, VBA
                       policy prohibits staff from using the same disability in multiple ways to
                       establish additional SMC benefits. As a result, we determined VA
                       overpaid the veteran $71,975 over a period of 2 years and 1 month.
                       VARO management disagreed with our assessment stating staff applied
                       reasonable doubt and the evidence as a whole was sufficient to show a
                       need for A&A. We continued to find the case to be in error because the

VA Office of Inspector General                                                                    7
                                                                   Inspection of VARO Seattle, WA


                        inaccuracy had nothing to do with reasonable doubt—more so, the error
                        resulted from staff applying the rating criteria incorrectly.
                    	 An error occurred when an RVSR incorrectly granted A&A benefits
                       based on the veteran’s service-connected coronary artery disease. When
                       service-related disabilities render a veteran permanently bedridden or in
                       need of A&A, VBA policy requires staff to establish the need for an
                       SMC benefit. However, medical evidence showed the need for A&A
                       was due to residuals of a cerebrovascular accident (stroke)—a disability
                       that was not related to military service. As a result, the veteran was
                       overpaid $44,767 over a period of 1 year and 4 months. VARO
                       management disagreed with our assessment in this case. Management
                       stated that although the evidence did not support granting A&A, the
                       condition was a known complication of one of the veteran’s other
                       service-connected disabilities. As such, additional development should
                       have been done. We continued to find staff did not comply with VBA
                       policy because we did not identify evidence linking residual disabilities
                       of the stroke to military service or to any of the veteran’s other
                       service-connected disabilities.
                    	 An RVSR established SMC for a veteran’s bilateral eye condition but did
                       not assign the correct level of SMC when the veteran had other
                       disabilities evaluated at 50 percent or more disabling. As a result, the
                       veteran was underpaid $10,688 over a period of 3 years and 5 months.
                    	 An RVSR did not correctly establish a higher level of SMC or the need
                       for A&A based on the veteran’s bilateral blindness. As a result, the
                       veteran was underpaid $6,290 over 1 year and 2 months.
                    	 Another error occurred when an RVSR established SMC for a veteran’s
                       loss of use of the lower extremities but did not assign the correct SMC
                       level based on an additional disability evaluated as 100 percent disabling.
                       As a result, the veteran was underpaid $2,408 over a period of 7 months.
                    	 An RVSR established SMC for a veteran’s loss of use of the lower
                       extremities. However, the RVSR did not increase SMC for other related
                       disabilities as required. As a result, the veteran was underpaid
                       $1,639 over a period of 9 months.

                    Generally, errors related to SMC and ancillary benefits occurred because
                    VARO managers did not have a mechanism in place to determine
                    effectiveness of the SMC training provided or a venue for staff to ask
                    clarifying questions about the training. Although we identified these SMC
                    training weaknesses, VARO managers were unaware that staff found the
                    training confusing. We reviewed VARO training records and confirmed
                    training for higher level SMC evaluations last occurred in January 2013.
                    However, the majority of the staff we interviewed stated the training was not
                    thorough and inadequately explained the rules for granting higher SMC rates.


VA Office of Inspector General                                                                  8
                                                                   Inspection of VARO Seattle, WA


                    Staff also believed the training would have been more beneficial had trainers
                    used real case examples.

                    Additionally, we identified weaknesses in the VARO’s local secondary
                    review policy for SMC cases above an established threshold or degree of
                    disability. VBA policy allows VSC managers the discretion to require
                    second-level reviews for SMC cases. The Seattle VSC manager designated
                    staff to conduct secondary reviews for higher level SMC cases. Generally,
                    ratings requiring secondary reviews involve SMC for anatomical loss, or loss
                    of use, of both feet, one hand, and one foot; blindness in both eyes with
                    visual acuity of 5/200, or less; or being permanently bedridden or so helpless
                    as to need regular aid and attendance.

                    We concluded VARO managers may have prevented the types of errors we
                    found if there had been a mechanism in place to determine the effectiveness
                    of SMC training or a venue for staff to ask clarifying questions about the
                    training material or scenarios. Additionally, we determined the VSC
                    manager could strengthen the secondary-review policy by lowering the SMC
                    threshold for requiring second-level reviews.

                    Recommendations

                    1.	 We recommend the Seattle VA Regional Office Director implement a
                        plan to ensure timely and appropriate action on reminder notifications for
                        medical reexaminations.

                    2.	 We recommend the Seattle VA Regional Office Director implement a
                        plan to review for accuracy the 576 temporary 100 percent disability
                        evaluations remaining from our inspection universe and take appropriate
                        actions.

                    3.	 We recommend the Seattle VA Regional Office Director develop and
                        implement a plan to ensure staff receive refresher training on processing
                        claims related to special monthly compensation and ancillary benefits
                        and implement a plan to monitor the effectiveness of that training.

                    4.	 We recommend the Seattle VA Regional Office Director amend its
                        secondary-review policy by reducing the special monthly compensation
                        threshold for requiring second-signature reviews as a means of ensuring
                        accuracy in processing these complex claims.

Management          The VARO Director concurred with our recommendations. In July 2014, the
Comments            Director updated the VARO’s workload management plan to address and
                    prioritize the processing of reminder notifications to ensure staff schedule
                    medical reexaminations. VARO staff also completed a review of the
                    576 temporary 100 percent disability evaluations remaining from our
                    inspection universe and took appropriate actions. Refresher training on SMC

VA Office of Inspector General                                                                  9
                                                                  Inspection of VARO Seattle, WA


                    cases is expected to be administered at a later date, to include a local
                    consistency study to gauge the effectiveness of the training. Additionally,
                    Quality Review staff will conduct an additional level of review of all SMC
                    cases completed during selected months and provide training on the errors
                    identified.

OIG Response        The Director’s planned actions to address the recommendations are
                    responsive.




VA Office of Inspector General                                                               10
                                                                   Inspection of VARO Seattle, WA


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and to propose corrective actions.
                    VARO management must prepare annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

                    VARO management ensured staff completed all 11 mandated SAOs timely.
                    SAOs also contained sufficient analyses using appropriate data and included
                    recommendations for improvements where appropriate.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, Seattle,
Prior VA OIG        Washington (Report No. 11-00515-266, September 8, 2011), we indicated
Inspection
                    VARO staff generally followed VBA policy and timely and accurately
                    completed the mandated SAOs. During this March 2014 inspection, we also
                    determined VARO staff effectively completed SAOs. As such, we made no
                    recommendation for improvement in this area.

Benefits            VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation a veteran is entitled to may change because the
                    service-connected disability may improve. Improper payments associated
                    with benefits reductions generally occur when beneficiaries receive
                    payments they are not entitled to because VAROs do not take required
                    actions to ensure veterans receive correct payments for their levels of
                    disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed benefits reduction. In
                    order to provide beneficiaries due process, VBA allows 60 days for the
                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs will make a final
                    determination to reduce or discontinue the benefit. On the 65th day following
                    due process notification, action is required to reduce the evaluation and
                    thereby minimize overpayments in cases where benefits entitlements change.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring reductions in benefits. The new policy no

VA Office of Inspector General                                                                11
                                                                   Inspection of VARO Seattle, WA


                    longer includes the requirement for VARO staff to take “immediate action”
                    to process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits. Timely
                    actions are fundamentally necessary to ensure proper use of resources.

Finding 2 	         Seattle VARO Lacked Oversight to Ensure Immediate Action On
                    Benefits Reductions

                    VARO staff delayed processing 11 of the 30 claims that required rating
                    decisions to reduce or discontinue benefits. Generally, delays in processing
                    benefits reduction cases occurred because VARO managers did not provide
                    oversight to ensure staff processed these cases timely. As a result, VA made
                    102 improper overpayments to 11 veterans from November 2012 to March
                    2014 totaling approximately $171,783.

                    Of the 11 cases with processing delays, an average of approximately
                    10 months elapsed before staff reduced benefits. The most significant
                    improper payment occurred when staff proposed reducing benefits after
                    medical evidence showed the veteran’s condition had improved. VARO
                    staff proposed the reduction in June 2012; however, the final action to reduce
                    benefits did not occur until December 2013, approximately 16 months
                    beyond the date the reduction should have occurred. As a result, the veteran
                    received approximately $37,055 in improper payments.

                    VARO management disagreed with our assessments in all 11 cases we found
                    noncompliant with VBA policy. In its response, VARO management stated
                    the failure to take timely action on a reduction is a workload management
                    issue, which is neither a procedural deficiency nor an error. Management
                    acknowledged the VARO’s responsibility for ensuring staff take timely and
                    appropriate actions on benefits reductions but indicated workload priorities
                    impacted their ability to do so. Specifically, the VSC manager told us staff
                    were focused on reducing VBA’s oldest rating-related claims in accordance
                    with priorities of the national strategy, which started in April 2013. Staff
                    said VARO managers did not allow them to resume processing
                    non-rating-related claims until September 2013. At the time of our
                    March 2014 inspection, staff and managers indicated they were processing
                    the oldest pending non-rating-related claims, including proposed benefit
                    reductions, which were between 900 and 1,000 days old.
                    Despite management’s disagreement, we continued to find the VARO
                    noncompliant with VBA’s policy to identify and route proposed benefits
                    reductions for action on the 65th day following the due process period. We
                    explained that our inspections identify as errors any conditions where
                    VAROs do not adhere to VBA policy. We concluded that providing
                    oversight of this high-risk area of benefits reductions to ensure sound
                    financial stewardship, maximize the effective use of resources, and minimize

VA Office of Inspector General                                                                 12
                                                                   Inspection of VARO Seattle, WA


                    improper benefits payments is clearly necessary and within the OIG’s
                    purview.

                    Recommendation

                    5.	 We recommend the Seattle Regional Office Director implement a plan to
                        ensure claims processing staff prioritize actions related to benefits
                        reductions to minimize improper payments to veterans.

Management          The VARO Director concurred with our recommendation. In July 2014, the
Response            Director updated the VARO’s workload management plan to address the
                    prioritization of benefit reduction case.

OIG Response        The Director’s comments and actions are responsive to the recommendation.




VA Office of Inspector General                                                                  13
                                                                   Inspection of VARO Seattle, WA


Appendix A          VARO Profile and Scope of Inspection

Organization        The Seattle VARO administers a variety of services and benefits, including
                    compensation and pension benefits; vocational rehabilitation and
                    employment assistance; specially adapted housing grants; benefits
                    counseling; and outreach to homeless, elderly, minority, and women
                    veterans.

Resources           As of February 2014, the Seattle VARO reported a staffing level of
                    576.1 full-time employees. Of this total, the VSC had 242.3 employees
                    assigned.

Workload            As of February 2014, the VBA reported 24,756 pending compensation
                    claims. On average, claims were pending 148.5 days—33.5 days more than
                    the national target of 115 days.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, WY, that process disability
Methodology         claims and provide a range of service to veterans. In March 2014, we
                    evaluated the Seattle VARO to see how well it accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud in claims processing.

                    Our review included 30 (5 percent) of 606 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database. These claims
                    represented all instances in which VBA staff had granted temporary
                    100 percent disability evaluations for at least 18 months or more as of
                    February 10, 2014. This is generally the longest period a temporary
                    100 percent disability evaluation may be assigned without review, according
                    to VBA policy. We provided VARO management with 576 claims
                    remaining from our universe of 606 for its review. We reviewed
                    30 (13 percent) of 225 TBI-related disability claims that the VARO
                    completed from October 1, 2013, through December 31, 2013. We
                    examined 30 (36 percent) of 84 veterans’ claims involving entitlement to
                    SMC and related ancillary benefits that VARO staff completed from January
                    2013 through December 2013.

                    Prior to VBA consolidating Fiduciary Program Activities nationally, each
                    VARO was required to complete 12 SAOs. However, since the Fiduciary
                    Activities consolidation, the VAROs are now only required to complete
                    11 SAOs. Therefore, we reviewed the 11 SAOs related to VARO operations.


VA Office of Inspector General                                                                14
                                                                     Inspection of VARO Seattle, WA


                    Additionally, we examined 30 (18 percent) of 167 claims completed from
                    October 2013 to December 2013 that proposed reductions in benefits.

                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VAROs to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is clearly a VBA program
                    management decision.
Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports. To test for reliability, we reviewed the data to
                    determine whether any were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed whether the data contained obvious duplication of records,
                    alphabetic or numeric characters in incorrect fields, or illogical relationships
                    among data elements. Further, we compared veterans’ names, file numbers,
                    Social Security numbers, VARO numbers, dates of claim, and decision dates
                    as provided in the data received with information contained in the 120 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims involving
                    benefits reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders we reviewed did not disclose any
                    problems with data reliability.

                    As reported by VBA’s Systematic Technical Accuracy Review program as
                    of March 2014, the overall accuracy of the VARO’s compensation
                    rating-related decisions was 91.5─2.5 percentage points below VBA’s
                    FY 2014 target of 94 percent. We did not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                   15
                                                                                  Inspection of VARO Seattle, WA


Appendix B             Inspection Summary

                       Table 2 reflects the operational activities inspected, applicable criteria, and
                       whether or not we had reasonable assurance of VARO compliance.

                                Table 2. Seattle VARO Inspection Summary
       Operational                                                                             Reasonable
        Activities                                    Criteria                                 Assurance of
        Inspected                                                                              Compliance
       Disability
       Claims
       Processing
                          Determine whether VARO staff properly reviewed temporary
       Temporary          100 percent disability evaluations. (38 CFR 3.103(b))
       100 Percent        (38 CFR 3.105(e)) (38 CFR 3.327) (M21-1 MR Part IV,                       No
       Disability         Subpart ii, Chapter 2, Section J) (M21-1MR Part III,
       Evaluations        Subpart iv, Chapter 3, Section C.17.e)
       Traumatic          Determine whether VARO staff properly processed claims for
       Brain Injury       service connection for all disabilities related to in-service TBI.        Yes
       Claims             (FL 08-34 and 08-36) (Training Letter 09-01)
       Special
                          Determine whether VARO staff properly processed SMC and
       Monthly
                          correctly granted entitlement to Ancillary Benefits. (38 CFR
       Compensation                                                                                 No
                          3.350, 3.352, 3.807, 3.808, 3.809, 3.809a,4.63, and 4.64)
       and Ancillary
                          (M21-1MR IV.ii.2.H and I)
       Benefits
       Management
       Controls
       Systematic         Determine whether VARO staff properly performed formal
       Analysis of        analyses of their operations through completion of SAOs.                  Yes
       Operations         (M21-4, Chapter 5)
                          Determine whether VARO staff timely and accurately
                          processed disability evaluation reductions or terminations.
                          (38 CFR 3.103(b)(2)), (38 CFR 3.105(e), (38 CFR 3.501),
       Benefit
                          (M21-1MR.IV.ii.3.A.3.e), (M21-1MR.I.2.B.7.a),                             No
       Reductions
                          (M21-1MR.I.2.C), (M21-1MR.I.ii.2.f), (M21-4,
                          Chapter 2.05(f)(4)), (Compensation & Pension Service
                          Bulletin, October 2010)
        Source: VA OIG
        CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                                16
                                                                       Inspection of VARO Seattle, WA


Appendix C          VARO Director’s Comments




                   (Comments received via email)




                   From: CHI, JANE L., VBASEAT On Behalf Of VAVBASEA/RO/DIR
                   Sent: Thursday, August 21, 2014 3:25 PM
                   To: Stokes, Nora D. (OIG); Figueroa, Ray (OIG)
                   Cc: VAVBAPHO/WAREA; Thomas, Angela, VBAPHNX; VAVBASEA/RO/DIR
                   Subject: Seattle Response: Inspection of the Seattle VA Regional Office
                   Importance: High

                   The Seattle Regional Office respectfully provides the attached Response to
                   the OIG’s Draft Inspection Report.

                    Patrick C. Prieb,
                    Director




VA Office of Inspector General                                                                    17
                                                                        Inspection of VARO Seattle, WA


                                                                                  (File Attached to Email)

                                 SEATTLE VA REGIONAL OFFICE (346)

                                 COMMENTS ON OIG DRAFT REPORT

OIG Recommendations:

Recommendation #1: We recommend the Seattle VA Regional Office Director implement a plan to
ensure timely and appropriate action on reminder notifications for medical reexaminations.

Seattle Regional Office (RO) Response: Concur

Action: Since end of March 2014, there were 1131 Future Physical Examination work items and as of
this response, there are 686 pending, which represents a 61 percent reduction. In addition to the
reemphasized focus on these work items, effective July 9, 2014, the Workload Management Plan was
updated to address 800 series work items, and processing prioritization.

Target Completion Date: Completed.

Recommendation #2: We recommend the Seattle VA Regional Office Director implement a plan to
review for accuracy the 576 temporary 100 percent disability evaluations remaining from our inspection
universe and take appropriate actions.

Seattle RO Response: Concur

Response: The Seattle RO has reviewed all 576 temporary 100 percent disability evaluations identified
and ensured the next appropriate action has been taken.

Target Completion Date: Completed.

Recommendation #3: We recommend the Seattle VA Regional Office Director develop and implement
a plan to ensure staff receive refresher training on processing claims related to special monthly
compensation and ancillary benefits and implement a plan to monitor the effectiveness of that training.

Seattle RO Response: Concur

Proposed: Refresher training for special monthly compensation and ancillary benefits will be given to
RVSRs with a local consistency study to be administered at a later date to gauge the effectiveness of the
refresher training.

Anticipated Completion Date: November 30, 2014

Recommendation #4: We recommend the Seattle VA Regional Office Director amend its secondary-
review policy by reducing the special monthly compensation threshold for requiring second-signature
reviews as a means of ensuring accuracy in processing these complex claims.

Seattle RO Response: Concur

Response: As an additional level of review, local Quality Review staff will conduct reviews of all SMC
cases completed during selected months throughout the year and provide on the spot training for any
errors identified.

Anticipated Completion Date: December 31, 2014



VA Office of Inspector General                                                                         18
                                                                         Inspection of VARO Seattle, WA


Recommendation #5: We recommend the Seattle Regional Office Director implement a plan to ensure
claims processing staff prioritize actions related to benefits reductions to minimize improper payments to
veterans.

Seattle RO Response: Concur

Action: On April 3, 2014, VBA guidance (M21-1MR, Part 1, 2.B.7.a) was modified to no longer state
‘immediate action’ in regards to processing benefits reductions. The current guidance dates that
Supervisors and VSRs are responsible for ensuing maturing EP 600s are identified and routed for action.
The Seattle RO followed all national workload directives on reducing the backlog since March 2013.

As of July 9, 2014, the updated Workload Management Plan addresses the prioritization for EP600s.

Anticipated Completion Date: Completed.




VA Office of Inspector General                                                                         19
                                                          Inspection of VARO Seattle, WA


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.
                      Acknowledgments	   Nora Stokes, Director
                                         Kristine Abramo
                                         Kelly Crawford
                                         Casey Crump
                                         Ramon Figueroa
                                         Lee Giesbrecht
                                         Kerri Leggiero-Yglesias
                                         Nelvy Viguera Butler
                                         Mark Ward




VA Office of Inspector General                                                       20
                                                                 Inspection of VARO Seattle, WA




Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Western Area Director
                    VA Regional Office Seattle Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                     Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Maria Cantwell, Patty Murray
                    U.S. House of Representatives: Suzan DelBene, Doc Hastings, Denny Heck,
                     Jaime Herrera Beutler, Derek Kilmer, Rick Larsen, Jim McDermott,
                     Cathy McMorris Rodgers, David G. Reichert, and Adam Smith




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                              21
